CERTIFICATE OF SERVICE
NO. TBD
Universal Telephone Exchange, Inc.
Petitioner(s)
v.
ZTE Corporation et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
UNIVERSAL TELEPHONE EXCHANGE, INC. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true
and correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Jeffrey S. Levinger
Levinger PC
1700 Pacific Ave.
Suite 2390
Dallas, TX 75201
(214) 855-6817
jlevinger@levingerpc.com
Counsel for ZTE Corporation et al.

Lucas DeDeus

January 2, 2020
SCP Tracking: Faulkner-12770 Coit Road, Suite 720-Cover White

